                     UNITED STATES DEPARTMENT OF EDUCATION                                                                      1
                                      OFFICE OF INSPECTOR GENERAL
                                               Chicago/Kansas City Audit Region

                       111 N. Canal St. Ste. 940                            8930 Ward Parkway, Ste 2401
                       Chicago, IL 60606-7297                               Kansas City, MO 64114-3302
                       Phone (312) 886-6503                                 Phone (816) 268-0500
                       Fax (312) 353-0244                                   Fax (816) 823-1398



                                                        January 6, 2006


                                                                                 Control Number ED-OIG/A05F0020


Dr. Lloyd Benjamin
President
Indiana State University
217 North Sixth Street
Terre Haute, IN 47809

Dear Dr. Benjamin:

This Final Audit Report, titled Indiana State University Compliance with the Ronald E. McNair
Postbaccalaureate Achievement Program Provisions, presents the results of our audit. The
purpose of the audit was to determine if Indiana State University (ISU) administered its Ronald
E. McNair Postbaccalaureate Achievement project (McNair project) in accordance with law and
regulations from the October 1, 1999 inception of the project through September 30, 2005. The
McNair project at Indiana State University has been funded to serve 20 participants per year
since the start of the project in 1999. Its funding level has gradually increased from $190,000,
for project year 1999-2000, to $220,427, for project year 2004-2005. The initial four-year grant
authorization, for the period October 1, 1999, through September 30, 2003, totaled $834,031.
The next four-year grant authorization, for the period October 1, 2003, through September 30,
2007, totaled $881,708.



                                                   BACKGROUND 



The goal of the Ronald E. McNair Postbaccalaureate Achievement Program is to increase the
number of doctoral degrees earned by students from underrepresented populations. The program
awards grants to undergraduate institutions for projects to motivate and prepare students from
disadvantaged backgrounds with strong academic potential. Grantees work with students
through the completion of the undergraduate degree, assisting with graduate school preparation,
application, and entrance. Grantees also track students’ academic progress through the
successful completion of the doctoral degree. Services provided to McNair participants include
the following: research opportunities for college juniors and seniors, mentoring, seminars and
other activities to prepare students for doctoral studies, internships for participants who have
completed their sophomore year in postsecondary education (with a research stipend of up to
$2,800), tutoring, academic counseling, and assistance in securing admission and financial aid
for graduate school.
          Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A05F0020                                                                        Page 2 of 27



                                      AUDIT RESULTS




Generally, ISU’s McNair project properly accounted for McNair grant funds and supported
expenditures with appropriate documentation. However, the McNair project (1) provided
services and equipment to ineligible students, and (2) provided a McNair official a double
reimbursement.

In its comments to the draft report dated December 20, 2005, ISU concurred with our findings
and recommendations. The comments are summarized at the end of each finding. The full text
of ISU’s comments on the draft report is included as an Attachment to this report.

Finding No. 1 – ISU provided McNair Project Services and Equipment to Ineligible
Students

ISU provided McNair project services and equipment to ineligible students. ISU (1)
inappropriately provided sophomores with McNair Summer Research Internships; (2) admitted
ineligible students to the McNair project; (3) inappropriately paid McNair funds to an individual
who was not enrolled at ISU; and (4) allowed non-McNair participants to use McNair project
laptop computers.

ISU inappropriately provided sophomores with McNair Summer Research Internships. Nine
students who had not completed their sophomore year of study received from $2,811 to $3,526
for room and board and stipends during ISU McNair summer research internships. The students
included five sophomores in the project in 2000, two in 2001, and two in 2005.

According to 34 C.F.R. 647.10(b), "Each participant given a summer research internship will
have completed his or her sophomore year of study .…"

McNair project officials deviated from the University’s definition of junior-year-status and
allowed students with 50-60 semester hours of credit to participate in its summer research
internships. The University requires a student to have 63 semester hours of credit for
classification as a junior. McNair officials interpreted the regulations at 34 C.F.R. 647.10(b) to
mean that students who were enrolled at a university for two years had completed their
sophomore year of study, regardless of the number of credits accrued.

We identified $29,004 of grant funds that ISU’s McNair project spent for these ineligible
students to participate in the summer research internships.

ISU admitted ineligible students to the McNair project. Two students were admitted to the
McNair project at ISU as members of underrepresented groups in their academic disciplines.
Both students were Caucasian females who were not low-income students. The McNair project
did not maintain documentation to support its determination that the students were members of
groups underrepresented in their academic disciplines.
Final Report
ED-OIG/A05F0020                                                                                        Page 3 of 27

The regulations at 34 C.F.R. 647.3(c)(3) state that a student may be admitted to a McNair project
if the student is “[a] member of a group that is not listed in Sec. 647.7 if the group is
underrepresented in certain academic disciplines as documented by standard statistical references
or other national survey data submitted to and accepted by the Secretary on a case-by-case
basis.” We found no evidence of acceptance by the Secretary for the enrollment of these
students.

The regulations at 34 C.F.R. 647.32(b)(1) state that the grantee shall maintain a record of “[t]he
basis for the grantee's determination that the student is eligible to participate in the project under
Sec. 647.3.”

The McNair Project Coordinator provided U.S. Department of Education (Department) statistics
to show that two students were members of groups underrepresented in their academic
disciplines.1 However, we believe the statistics do not indicate that either student was
underrepresented. The statistics reported that white, non-Hispanic students were the largest
group awarded doctoral degrees in both disciplines (76 percent and 83 percent), and females
exceeded males in one discipline (59 percent) and were close to the numbers of males (43
percent) in the other. ISU McNair project officials acknowledge that they did not seek approval
from the Secretary to admit these students.

We identified $7,613 of grant funds that ISU’s McNair project spent on behalf of the two
ineligible students.

ISU inappropriately paid McNair funds to an individual who was not enrolled at ISU. One
student who was not enrolled at ISU during 2004 participated in McNair project activities during
the Spring and Summer terms in 2004. In the Spring 2004 term, the student went on a field trip
and attended a conference that was paid for with McNair grant funds. In the Summer 2004 term,
the student participated in the summer research internship, attended a conference, and received a
stipend and room and board payments.

According to 34 C.F.R. 647.3(b), only students that are "... currently enrolled in a degree
program at an institution of higher education …" are eligible to participate in the McNair project.
According to an ISU enrollment criterion, a student is enrolled during a term only if the student
is registered for a class.

The student was a McNair scholar through the Fall 2003 term. During the Spring and Summer
2004 terms, the student was finishing incomplete classes from previous terms but was not
registered for classes. McNair project officials stated that they considered a student enrolled
during a term if the student was completing academic work. However, the McNair officials did
not explain their basis for using a different standard than ISU for determining if a student is
enrolled. The decision of whether a student is considered “enrolled” is made by the institution


1
 The Department’s National Center for Education Statistics, Integrated Postsecondary Education Data System, Fall
2002 survey, Table 271, titled “Doctor’s degrees conferred by degree-granting institutions, by sex, racial/ethnic
group, and major field of study: 2001-02,” indicates that female, white, non-Hispanic students were the largest
group surveyed (266 of 843 or 31.5 percent) for one student’s major field of study, foreign languages and literatures.
For the other student’s major field of study, social sciences and history, female, white, non-Hispanic students (1,119
of 3,902 or 28.7 percent) were second only to male, white, non-Hispanic students.
Final Report
ED-OIG/A05F0020                                                                          Page 4 of 27

depending on its established criteria, and there is no basis for the McNair program to apply a
different standard.

We identified $2,097 of grant funds that ISU’s McNair project spent on behalf of this ineligible
student during 2004.

ISU allowed non-McNair participants to use McNair project laptops. Three out of five laptop
computers purchased with McNair grant funds were checked out to students who were not
participating in the McNair project at the time. ISU’s McNair project officials allowed two
McNair scholars who checked out McNair project laptop computers to retain the computers after
leaving the McNair project. Neither student ever returned the computers. Additionally, McNair
project officials allowed one former McNair scholar to check out a McNair project laptop
computer, which was later determined to be unrecoverable.

The regulations at 34 C.F.R. 74.34(c) state, "The recipient shall use the equipment in the project
or program for which it was acquired .…"

ISU’s McNair project lacked controls over laptops purchased with McNair grant funds that are
needed to ensure that they are only used by McNair scholars.

Because McNair officials allowed students who were not participating in the McNair project to
use and keep laptop computers, current McNair scholars do not have access to laptop computers
purchased with grant funds.

Recommendations

We recommend that the Deputy Chief Financial Officer, in conjunction with the Assistant
Secretary for Postsecondary Education, require ISU to:

1.1 	 Return $38,714 in federal funds to the Department;
1.2 	 Develop and implement procedures to ensure that (1) only students who have completed
      their sophomore year of study are allowed to participate in the summer research
      internships, (2) the documentation and approval requirements for admittance as an
      underrepresented group in a certain academic discipline are met, (3) only students currently
      enrolled in a degree program at ISU are participating in ISU’s McNair project, and (4) only
      those individuals who are currently participating in the McNair project are allowed to use
      equipment purchased with McNair grant funds; and
1.3 	 Recover or replace three laptop computers that were checked out to individuals no longer
      participating in the McNair project.

ISU Comments

ISU concurs with this finding. ISU prepared and has already implemented a corrective action
plan that includes: (1) revising current policies, procedures, and management controls to ensure
that records are maintained for all participants to clearly identify eligibility for participation in:
(a) the program, and (b) program services; (2) developing policies, procedures, and management
controls to ensure effective control and accountability of equipment acquired with federal funds
and including them in the revision of the student handbook and policies and procedures manual;
(3) notifying the former McNair scholars with laptops in writing that ISU requests the return of
Final Report
ED-OIG/A05F0020                                                                     Page 5 of 27

the laptop computer; and (4) replacing the three laptop computers with three newer and better
equipped laptop computers. In addition, ISU will conduct an orientation for members of the
Program Advisory Council to ensure all members are conversant with participant eligibility
guidelines.

Finding No. 2 - A McNair Official Received a Double Reimbursement

A McNair official received travel reimbursements for attendance at a TRIO training conference
from two sources: ISU’s McNair grant and from a TRIO Training grant awarded to another
university.

A grantee can only use grant funds for allowable expenses. A duplicative payment is not
considered an allowable expense.

The McNair official received a payment to offset travel expenses of $230 from the TRIO
Training grantee, but did not subtract this amount from the amount he submitted for
reimbursement from ISU’s McNair funds. ISU identified a $60 parking expense on the hotel
receipt for which the official did not request reimbursement, but no other reductions were made.
Therefore, we determined that the net overcharge to ISU was $170.

Recommendations

We recommend that the Deputy Chief Financial Officer, in conjunction with the Assistant
Secretary for Postsecondary Education, require ISU to:

2.1 	 Return $170 in federal funds to the Department, and
2.2 	 Develop and implement procedures to ensure that McNair officials and participants are not
      reimbursed twice for the same expenses.

ISU Comments

ISU concurs with this finding. ISU prepared and has already implemented a corrective action
plan that includes: (1) issuing a formal letter of reprimand to a McNair official who received a
double reimbursement, (2) informing all current and new TRIO program staff members that they
can only use grant funds for allowable travel expenses and that a duplicate payment cannot be
considered an allowable expense, and (3) establishing a receivable in the amount of $170 for the
duplicate reimbursement for travel expenses.




                  OBJECTIVE, SCOPE, AND METHODOLOGY 



The objective of our audit was to determine if ISU administered its McNair project in accordance
with law and regulations from the October 1, 1999 inception of the project through September
30, 2005.
Final Report
ED-OIG/A05F0020                                                                        Page 6 of 27

To achieve our objective, we reviewed the provisions of the HEA, Title IV, Part A-2, Chapter 1,
Section 402E (20 U.S.C. 1070a-15A); 34 C.F.R. Part 647; and 34 C.F.R. Parts 74, 75, 77, 79, 82,
85, and 86; and OMB Circular A-21, Cost Principles for Educational Institutions. We
interviewed federal TRIO office personnel and reviewed documents provided by the office
relevant to the administration of the McNair program in general and the administration of the
McNair project at ISU. We reviewed TRIO training conference documentation provided by a
TRIO Training grantee to confirm attendance of ISU McNair staff at TRIO training conferences.

We interviewed ISU officials, including McNair project officials, and reviewed documents
provided by ISU, including (1) organization charts; (2) McNair grant proposals; (3) McNair
Grant Award Notifications; (4) the ISU Undergraduate Catalog; (5) McNair Annual Performance
Reports; (6) the McNair policies and procedures manual; (7) guidance for administering federal
grants; and (8) Indiana State Board of Accounts A-133 Single Audit Reports.

We also reviewed budgeted financial documents for the ISU McNair project for program years
1999-2000 through 2004-2005 and actual expenditure financial documents for program years
1999-2000 through August 22, 2005. From the more than 30 accounts listed in each year we
categorized the accounts into personnel and non-personnel expenses and judgmentally selected
accounts from each category of accounts from one of the six program years to test that ISU
properly accounted for McNair project funds. Among the accounts tested in the personnel
category were "Sal-Admin, Fiscal" and "Medical Insurance." The non-personnel category
included "Lodging, Per Diem," "Registration," and "Computer Equipment-All O."

To determine ISU’s compliance with McNair student eligibility requirements, we judgmentally
selected at least 25 percent of students admitted into the project for each program year from
1999-2000 to 2003-2004 for student file review, which amounted to a total of 58 students. We
reviewed student transcripts for all of the students admitted to the project, including 11 students
that were new to the project in 2004-2005, to determine student eligibility pertaining to
enrollment status. Thus, a total of 69 students were included in this second review. We did not
conduct a full file review for the 11 new students because they had not completed an entire
project year at the time of our first ISU site visit.

As part of our audit, we also gained an understanding of ISU’s system of internal control over
McNair grant funds. Although we did not assess the adequacy of ISU’s system of internal
control over McNair grant funds, we found instances of non-compliance that might have been
caused, in part, by weaknesses in ISU’s system of internal control. These weaknesses are related
to ISU’s managing of its McNair project funds to determine whether funds were used (1) to
provide services to eligible students; and (2) for allowable McNair program costs. These
weaknesses and instances of noncompliance are discussed in the AUDIT RESULTS section of
this report.

We performed our audit work at ISU’s McNair administrative offices in Terre Haute, Indiana
and our Chicago/Kansas City offices. We held an exit conference with ISU officials on October
27, 2005. We performed our audit in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.
Final Report
ED-OIG/A05F0020                                                                       Page 7 of 27


                            ADMINISTRATIVE MATTERS




Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Dr. Danny A. Harris
                              Deputy Chief Financial Officer
                              U.S. Department of Education
                              Office of the Chief Financial Officer
                              400 Maryland Avenue, SW
                              Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,

                                                 /s/

                                             Richard J. Dowd
                                             Regional Inspector General for Audit


Attachment
Final Report
ED-OIG/A05F0020                                                                        Page 8 of 27

                                          Attachment
[ISU Letterhead]


December 20, 2005

U.S. Department of Education
Office of Inspector General
111 N. Canal St. STE. 940
Chicago, IL 60606-6503

ATTN:		        Richard Dowd
               Regional Inspector General for Audit

Subject: 	     Draft Audit Report (Control Number ED-OIG/A05F0020)


We are in receipt of the referenced draft audit report in which you present the results of the audit
performed by your office of the Ronald E. McNair Postbaccalaureate Achievement Program at
Indiana State University conducted August 22, 2005 to September 8, 2005. The audit covered the
grant budget period from October 1, 1999 through September 30, 2005.

As to the audit findings and recommendations included in the draft audit report we submit
the following responses:

Finding No. 1 – ISU provided McNair Project Services and Equipment to Ineligible
Students

ISU provided McNair project services and equipment to ineligible students. ISU (1)
inappropriately provided sophomores with McNair Summer Research Internships; (2) admitted
ineligible students to the McNair project; (3) inappropriately paid McNair funds to an individual
who was not enrolled at ISU; and (4) allowed non-McNair participants to use McNair project
laptops.

       We concur with the findings

Recommendations as stated in the draft report

We recommend that the Chief Financial Officer (CFO), in conjunction with the
Assistant Secretary for Postsecondary Education, require ISU to:

1.1 	 Return $38,714 in federal funds to the Department;
1.2 	 Develop and implement procedures to ensure that (1) only students who have completed
      their sophomore year of study are allowed to participate in the summer research
      internships, (2) the documentation and approval requirements for admittance as an
      underrepresented group in a certain academic discipline are met, (3) only students
      currently enrolled in a degree program at ISU are participating in ISU’s McNair project,
      and (4) only those individuals who are currently participating in the McNair project are
      allowed to use equipment purchased with McNair grant funds; and
Final Report
ED-OIG/A05F0020                                                                       Page 9 of 27

1.3 	 Recover or replace three laptop computers that were checked out to individuals no
      longer participating in the McNair project.

ISU Corrective Action Plan:

1. 	 Revise current policies, procedures and management controls to ensure that records
     are maintained for all participants to clearly identify eligibility for participation in: (a)
     the program, and (b) program services. These changes have been completed and are included
     in the revised policies and procedures manual and student handbook.

   Supporting documentation for specific recommendations:

   Recommendation 1-2-1 – Appendix A – Summer Research Program


   Recommendation 1-2-2 – Appendix B – Selection of Students 

                                       Application Form 

   Recommendation 1-2-3 – Appendix C – Monitoring Students 


2. 	 An orientation will be conducted for members of the Program Advisory Council to ensure all
     members are conversant with participant eligibility guidelines.
3. 	 Policies, procedures, and management controls to ensure effective control and accountability
    of equipment acquired with federal funds have been developed and are included in the
    revision of the student handbook and policies and procedures manual.

   Supporting documentation for specific recommendations:

   Recommendation 1-2-4 – Appendix D – Computer and Technology Loan Services

4. 	 The former McNair Scholars involved have been notified in writing that Indiana
     State University (ISU) requests the return of the laptop computer.

   Supporting documentation for specific recommendations:

   Recommendation 1-3 – Appendix E – Recovery request letter

5. 	 ISU School of Graduate Studies has replaced the three laptop computers with three
    newer and better equipped laptop computers as of November 8, 2005.

   Supporting documentation for specific recommendations:

   Recommendation 1-3 – Appendix F – Equipment Transfer Summary
Final Report
ED-OIG/A05F0020                                                                   Page 10 of 27

Finding No. 2 - A McNair Official Received a Double Reimbursement

A McNair official received travel reimbursements for attendance at a TRIO training
conference from two sources: ISU’s federal McNair grant and from a TRIO Training grant
awarded to another university.

         We concur with this finding.


Recommendations as stated in the draft report:

We recommend that the CFO, in conjunction with the Assistant Secretary for
Postsecondary Education, require ISU to:

2.1 	 Return $170 in federal funds to the Department, and
2.2 	 Develop and implement procedures to ensure that McNair officials and participants are
      not reimbursed twice for the same expenses.


ISU Corrective Action Plan:

1. 	A formal letter of reprimand has been issued to a McNair official who received a double
    reimbursement.
2. 	All TRIO program staff members were informed that they can only use grant funds for
    allowable travel expenses and that a duplicate payment cannot be considered an allowable
    expense. All new employees of the TRIO program will be informed of allowable travel
    expenses.
3. 	ISU has established a receivable in the amount of $170.00 for the duplicate reimbursement
    for travel expenses.


Note: Appendixes A-D are sections of the policies and procedures handbook that have
been either revised or are additions to the existing polices and procedures handbook.


Please let me know if additional information is necessary.

Sincerely,

/s/

Lloyd W. Benjamin III
President


Encls.
Final Report 

ED-OIG/A05F0020                  Page 11 of 27






                  APPENDIX A 

Final Report
ED-OIG/A05F0020                                                                       Page 12 of 27

F. Summer Research Program
    • 	 Out of the 20 Scholars in the program, 13 are given the opportunity to participate in the
        Summer Research Program. Scholars are selected based upon their Summer Research
        Proposal, Seniority, Availability and approval from the McNair Advisory Board.
        Students allowed to participate in the McNair Summer Research Experience will be in
        accordance with HEA 647.10 (b) Each participant given a summer research internship
        will have completed his or her sophomore year of study; and…
        according to ISU handbook must have earned 62 semester hours prior to participation.
    • 	 Scholars who participate in the Summer Research Experience must be enrolled in a
        course during the session in which the research is being conducted. The academic fees
        for the course in which the scholars are enrolled is paid for by ISU in part of the In-kind
        contribution.
Final Report
ED-OIG/A05F0020                Page 13 of 27




                  APPENDIX B
Final Report
ED-OIG/A05F0020                                                                             Page 14 of 27

IV.        SELECTION OF SCHOLARS

A. 	Eligibility Determination
    • 	 Develop Individual Profile on each applicant for review of McNair staff and McNair
        selection committee. (Appendix, B-1)
    • 	 Determine First Generation Status by referring to the section entitled “Parents 

        Information” on the McNair Application (Appendix, A-2). 

    • 	 Document and address low-income status by determining family size and income levels
        utilizing tax returns for the previous year or university documentation supporting income
        levels, and referring to the appropriate year Federal Trio Programs Annual Low Income
        Levels form (Appendix B-4).
    • 	 Determine Eligibility Status: This will be done by first determining the applicants
        ethnicity as reported on section I of the application and then determining if the applicant
        is considered under represented in graduate education according to HEA Title 34, Part
        647.3 which states;
A student is eligible to participate in a McNair project if the student meets all the following
requirements:
  (a)(1) Is a citizen or national of the United States; or
  (2) Is a permanent resident of the United States; or
  (3) Is in the United States for other than a temporary purpose and provides evidence from the
Immigration and Naturalization Service of his or her intent to become a permanent resident; or
  (4) Is a permanent resident of Guam, the Northern Mariana Islands, or the Trust Territory of
the Pacific Islands; or
  (5) Is a resident of one of the Freely Associated States.
  (b) Is currently enrolled in a degree program at an institution of higher education that
participates in the student financial assistance programs authorized under Title IV of the HEA.
  (c) Is--
  (1) A low-income individual who is a first-generation college student;
  (2) A member of a group that is underrepresented in graduate education; or
  (3) A member of a group that is not listed in Sec. 647.7 if the group is underrepresented in certain
academic disciplines as documented by standard statistical references or other national survey data
submitted to and accepted by the Secretary on a case-by-case basis.

(647.7; Groups underrepresented in graduate education. The following ethnic
and racial groups are currently underrepresented in graduate education:
Black (non-Hispanic), Hispanic, and American Indian/Alaskan Native.)

  (d) Has not enrolled in doctoral level study at an institution of higher education.
Final Report
ED-OIG/A05F0020                                                                                    Page 15 of 27

         The Ronald E. McNair
             Post Baccalaureate
                  Achievement Project

                                                                                   Indiana State University
Attach Photo                                                            College of Business, Suite 423
(required)                                                                     Terre Haute, IN 47809
                                                                                      812-237-8315



                                        Deadline for Application: March 10, 2006

(Please type or print legibly in ink)

I. Personal Data
Name _________________________________________________________________________
          Last          	                               First                            MI

Current Address ________________________________________________________________
                               Street                           City                             Zip

Current Telephone ( ____ ) ________________________________________________________

Permanent Address ______________________________________________________________
                               Street                           City                             Zip

Permanent Telephone ( ____ ) _____________________________________________________

Social Security Number (ID) _______ - _____ - _______ Date of Birth ____________________
                                                                                 Mo.     Day     Yr.

E-mail ________________________________________________________________________


Gender:
Male                                                    U.S. Citizenship:        Yes     No
Female                                                  Other (Specify)


Ethnic Background:		           Asian American                     African American (Black)
                               Caucasian                          Hispanic/ Latino
                               Puerto Rican                       Pacific Islander (Specify country _____)
                               Native American/Alaskan Native
                               If Native American, list tribe affiliation __________________________
                               Other
       Final Report
       ED-OIG/A05F0020                                                                     Page 16 of 27


II. Educational Information
       ______________________________________________________________________________

Class standing (circle one):   freshman   sophomore   junior   senior      Hours earned __________

Major ___________________________________        Minor _______________________________________

Academic Advisor _______________________________________________________________________


Projected Graduation Date _________________________________________________________________

I am interested in pursuing the doctoral degree with a concentration in (list area):
   ______________________________________                     ____________________________________________

I am interested in attending the following institution (s) for my doctoral degree:
______________________________________                 ____________________________________________

______________________________________           ____________________________________________

I have previously participated in:

Upward                    Talent Search         Student Support Services                 21st Century 

Bound 
                                         (TRIO)                                   Scholar
Academic and extracurricular awards, honors, and scholarships ____________________________________

_______________________________________________________________________________________

Membership or participation in academic/campus organizations and activities ________________________

_______________________________________________________________________________________

_______________________________________________________________________________________
_______________________________________________________________________________________

_______________________________________________________________________________________

_______________________________________________________________________________________

Previous research experience (class or project, include description of class or program, institution, year of
  experience, and instructor or faculty mentor)

_______________________________________________________________________________________

_______________________________________________________________________________________

_______________________________________________________________________________________

_______________________________________________________________________________________

_______________________________________________________________________________________
Final Report
ED-OIG/A05F0020                                                                             Page 17 of 27

III. Family Information
For financial aid and purposes, you are considered:       Dependent              Independent

 If dependent, complete the questions below in Section A.
IfIfdependent, complete
    independent,  skip to the questions
                          Section  B. below in Section A.
If independent, skip to Section B.
                                                  Section A
                                            Section A
 What is the size of your parents’ household, including yourself? ________________________
What is the size of your parents’ household, including yourself? ________________________
 Did your parents file a federal income tax return for 2001?       Yes No
Did your parents file a federal income tax return for 2001?          Yes          No

IfIfyes,
    yes,what
         whatwas
             wastheir
                  their2001
                        2001taxable
                             taxableincome?
                                     income?$_______________________________________
                                              $_______________________________________
(IRS
 (IRS Form 1040: line 39, Form 1040A:line
       Form 1040: line 39, Form 1040A:   line25,
                                             25,Form
                                                 Form1040EZ:
                                                      1040EZ:line
                                                              line6)
                                                                  6)

IfIfyour
    youranswer
         answerisisno,
                   no,place
                       placeaa“0”
                               “0”on
                                  onthe
                                     theline
                                         lineabove
                                              abovefor
                                                    fortaxable
                                                        taxableincome.
                                                                income.



If independent, complete the sections below in Section B.


                                                 Section B

What is the size of your household; include yourself, spouse, and/or other dependents? ______

____________________________________________________________________________

Did you file a federal income tax return for 2001?        Yes     No

If yes, what was your 2001 taxable income? $_______________________________________


(IRS Form 1040: line 39, Form 1040A: line 25, Form 1040EZ: line 6) 


If your answer is no, place a “0” on the line above for taxable income. 


** Please attach a photocopy of the appropriate federal tax form. If 2001 taxes have not been filed, 

submit a copy of 2000 tax return.


Final Report
ED-OIG/A05F0020                                                                                    Page 18 of 27

Does your family receive assistance from any of the following sources?



Aid to family with Dependent Children (AFDC)        Yes          No 

Social Security                                     Yes          No       

Veteran’s Benefits                                  Yes          No 

Food Stamps                                         Yes          No 

Unemployment Compensation                           Yes          No 

Other (Specify) _______________________________________________________________________ 


Are you currently receiving financial aid?    Yes      No 

If yes, please attach a copy of your most recent financial aid form to this application. Acceptable


documentation includes a photocopy of your most recent FAFSA or Student Aid Report (SAR). 


Are you currently employed?


If yes, how many hours per week do you work?___________________________________________ 


Supervisor’s name______________________________ Work Phone_________________________ 


IV. Parent (s) Information, Or Primary Caregiver
Who was your primary caregiver (who did you live with) while attending school:

Mother          Father           Both parents                Other __________________________________
                                                                  (specify)
Education Attainment of mother:

Highest Grade Completed          1     2   3   4   5 6   7    8    9    10 11      12   13 14      15    16

High school diploma:     Yes     No                GED: Yes            No

College Degree earned (if any). Circle appropriate response:           bachelors        masters         doctorate

Educational attainment of father:

Highest grade completed          1     2   3   4   5 6   7    8    9   10   11     12    13   14   15     16

High school diploma      Yes     No                GED       Yes       No

College Degree earned (if any). Circle appropriate response:           bachelors        masters         doctorate

Educational attainment of caregiver:

Highest grade completed          1     2   3   4   5 6   7    8    9   10   11     12    13   14   15     16

High school diploma      Yes     No                GED       Yes       No

College Degree earned (if any). Circle appropriate response:           bachelors        masters         doctorate

I affirm to the best of my knowledge that the information I have provided is accurate and true.

Signature____________________________________________Date_____________________________
Final Report 

ED-OIG/A05F0020               Page 19 of 27






                  APPENDX C
Final Report
ED-OIG/A05F0020                                                                     Page 20 of 27


E. Academic Monitoring
   • Monitor enrollment in courses during semesters in which student is receiving services
      from program and assure that students are eligible in accordance with HEA 34 CFR
      647.3 (b) which states:

A student is eligible to participate in a McNair project if the student meets all the following
requirements: …
  (b) Is currently enrolled in a degree program at an institution of higher education that
participates in the student financial assistance programs authorized under Title IV of the HEA.

    • 	 Monitor grades to assure that the students are maintaining academic standards consistent
        with gaining entry into graduate school. (Goal of above 3.0)
    Students who do not maintain the minimum of 3.0 GPA are put on academic probation in the
    program. During academic probation, students are allowed to attend seminars, but not
    receive stipends nor participate in the Summer Research Experience.
    • 	 Records will be kept for each participant in accordance with HEA 34 CFR 647.32 (b)
        which states;
(b) Recordkeeping. For each student, a grantee shall maintain a record of--
  (1) The basis for the grantee's determination that the student is eligible to participate in the
project under Sec. 647.3;
  (2) The individual needs assessment;
  (3) The services provided to the participant; and
  (4) The specific educational progress made by the student during and after participation in the
project.
Final Report
ED-OIG/A05F0020                Page 21 of 27




                  APPENDIX D
Final Report
ED-OIG/A05F0020                                                                    Page 22 of 27

H. Computer and Technology Loan Services
    • 	 Each scholar is given the opportunity to check-out technology on a temporary loan basis
        The technology provided is intended only for Active Participating McNair Scholar’s to
        use in scholarly related activities. The scholar should return the technology in good
        condition. Scholars are responsible for stolen, lost or damaged items.
    • 	 All equipment will be utilized in accordance with HEA 34 CFR 74.34 (c);
(c) The recipient shall use the equipment in the project or program for which it was acquired as
long as needed, whether or not the project or program continues to be supported by Federal
funds and may not encumber the property without approval of the Secretary. When no longer
needed for the original project or program, the recipient shall use the equipment in connection
with its other federally-sponsored activities, in the following order of priority:
   (1) Activities sponsored by the Federal awarding agency which funded
the original project; and then
   (2) Activities sponsored by other Federal awarding agencies.

   (The use of computers, computer software, and file sharing programs on university
   owned computers will follow all university guidelines, which can be found in the
   University Handbook, updated October 2005, beginning on page V-12)

   • 	 Check-Out Duration:
       Computers: During Academic Year -21 days, During Summer Research Program - 7 days
       Camera, Projector, Video Recorder: 24 hours
   • 	 Each item checked out must be done by a McNair Staff member (Director, Coordinator,
       Administrative Assistant, or Graduate Student) utilizing the Equipment Check-Out Form
       (Appendix D-1). The check-out form must be signed by the staff person and student
       checking the device out. Staff members are to assure that the scholar understands that the
       device is on a loan basis and should be returned by the date stated on the check-out form.
       Students who do not adhere to the check-out duration limits are subject to suspension of
       their technology loan privileges.
Final Report
ED-OIG/A05F0020                                                                                      Page 23 of 27

          McNair Achievement Program Computer and Technology Loan
  Laptop/accessories                                      Item Number                      Check List
    3.5” Floppy Drive
    CD Drive
    DVD Drive
    Zip Drive
    128 MB USB Flash-Drive
    56K Modem Card
    Ethernet Card
    Wireless Card
    Rechargeable Battery
    Power Cable
    Carrying Case
   Digital Camera
    Power Cable
    Memory Stick
    USB Connector Cable
    Carrying Case
   LCD Projector
    RCA/Video/Audio Cable
    Serial Port Connector Cable
    Power Cable
    Remote Control
    Carrying Case
  Digital Video Camera
    USB Connector Cable
    Power Cable
    Remote Control
    RCA/Video/Audio Cable
    DV Cassette

Check-Out Duration: 

Computers: During Academic Year -21 days, During Summer Research Program - 7 days


Camera, Projector, Video Recorder: 24 hours; academic year and summer. 


Terms and Conditions:
The technology provided is intended for Active Participating McNair Scholar’s to use in scholarly related activities.
The scholar should return the technology in good condition. Scholars may be held responsible for stolen, lost or
damaged items.

(The use of computers, computer software, and file sharing programs on university owned computers will follow all
university guidelines, which can be found in the University Handbook, October 2005, beginning on page V-12)

McNair Scholar Signature: _____________________________                          Date: ________
Staff Signature: _____________________________                                   Date: ________
Expected Date of Return: ________
Returned Date: ________             Staff Signature: ___________________________________
Final Report
ED-OIG/A05F0020                Page 24 of 27




                  APPENDIX E
Final Report
ED-OIG/A05F0020                                                                     Page 25 of 27



                                             September 15, 2005

Dear.,

       I am writing to you in an attempt to retrieve the Dell Laptop Computer that was
inadvertently given to you in January 2001. These computers were purchased with funds from a
Federal Government grant and should have been restricted to utilization by McNair Scholars
while they are enrolled in the program at Indiana State University.

       It has been brought to the attention of the Indiana State University McNair Program,
during a recent audit by the Federal Department of Education (DOE) that since you are no longer
enrolled in the McNair program at ISU, your possession of the laptop computer purchased by the
ISU McNair Program is in violation of Federal Government regulations. Under these
circumstances, we are hereby requesting that the laptop be returned immediately the ISU McNair
Program.

        In order for the ISU McNair Program to remain in good-standing with the DOE, we need
your assistance in returning the laptop as soon as possible, but no later than September 30, 2005.
Please contact me at (812)237-8362 or by email at                  so that we can arrange for the
laptop computer to be returned to the ISU McNair Program as quickly as possible. Upon the
receipt of the laptop from you, it will be used by current McNair Scholars on a weekly loan basis
and will continue to be utilized in accordance with the DOE Federal regulations.

       I sincerely apologize for any inconvenience that this may cause you and hope that you
will understand the seriousness of this matter and return the laptop computer. Thank you in
advance for your patience, understanding and cooperation.

Sincerely,



McNair Program Coordinator
Indiana State University
Terre Haute, IN. 47809
Final Report
ED-OIG/A05F0020                Page 26 of 27




                  APPENDIX F
           Final Report
           ED-OIG/A05F0020                                                                    Page 27 of 27




                                             INDIANA STATE UNIVERSITY 

                                              Computer Transfer Summary 

                                           Graduate School to McNair Program 


                     PC, DELL 

                     LATITUDE 

0138564X   0138564		 CPxJ650GT              GQ26701            DELL              SB0423   .              $2,188.20
                     POCKET PC IPAQ
                     WITH
0138877X   0138877		 ACCESSORIES            4611DW36W27V       COMPAQ            SB0423   .              $ 978.00
                     POCKET PC, IPAQ
                     WITH
0138878X   0138878 ACCESSORIES              4611DW362281       COMPAQ            SB0423   .              $ 978.00
0140809    0140809 PC, DELL LAPTOP          5VLVW01            DELL MARKETING    SB0423   P0037331       $3,375.49
                     PC, DELL
0142353    0142353 LATITUDE C840            68M1L11            DELL MARKETING    SB0423   P0040673       $3,413.60

           Equipment transferred as of 

           November 8, 2005 

